      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                       Washington, D.C. 20201




May 5, 2010

TO:            Marilyn Tavenner
               Acting Administrator and Chief Operating Officer
               Centers for Medicare & Medicaid Services


FROM:          /Joseph E. Vengrin/
               Deputy Inspector General for Audit Services


SUBJECT:       Review of Rhode Island’s Compliance With the American Recovery and
               Reinvestment Act of 2009 Medicaid Eligibility Requirements (A-01-09-00007)


Attached, for your information, is an advance copy of our final report on Rhode Island’s
compliance with the American Recovery and Reinvestment Act of 2009 Medicaid eligibility
requirements. We will issue this report to the Rhode Island Department of Human Services within
5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact George M. Reeb, Assistant Inspector General for the Centers for Medicare &
Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov or Michael J.
Armstrong, Regional Inspector General for Audit Services, Region I, at (617) 565-2689 or through
email at Michael.Armstrong@oig.hhs.gov. Please refer to report number A-01-09-00007.


Attachment
       DEPARTMENT OF HEALTH & HUMAN SERVICES                               OFFICE OF INSPECTOR GENERAL

                                                                           Office of Audit Services
                                                                           Region I
                                                                           John F. Kennedy Federal Building
                                                                           Room 2425
                                                                           Boston, MA 02203
                                                                           (617) 565-2684
May 12, 2010

Report Number: A-01-09-00007

Mr. Gary Alexander
Director, Department of Human Services
Louis Pasteur Building
600 New London Avenue
Cranston, RI 02920

Dear Mr. Alexander:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Rhode Island’s Compliance With the American
Recovery and Reinvestment Act of 2009 Medicaid Eligibility Requirements. We will forward a
copy of this report to the HHS action official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-01-09-00007 in all correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services

Enclosure


HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
  Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




    REVIEW OF RHODE ISLAND’S
        COMPLIANCE WITH
  THE AMERICAN RECOVERY AND
    REINVESTMENT ACT OF 2009
MEDICAID ELIGIBILITY REQUIREMENTS



                         Daniel R. Levinson
                          Inspector General

                             May 2010
                           A-01-09-00007
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                         INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the Centers
for Medicare & Medicaid Services (CMS) administers the program. Each State administers its
Medicaid program in accordance with a CMS-approved State plan. Although the State has
considerable flexibility in designing and operating its Medicaid program, it must comply with
applicable Federal requirements.

Pursuant to section 1905(b) of the Act, the Federal Government pays its share of a State’s medical
assistance expenditures under Medicaid based on the Federal medical assistance percentage (FMAP),
which varies depending on the State’s relative per capita income. Although FMAPs are adjusted
annually for economic changes in the States, Congress may increase FMAPs at any time.

Temporary Increase in Federal Medical Assistance Percentages

The American Recovery and Reinvestment Act of 2009 (the Recovery Act), P.L. No. 111-5, enacted
February 17, 2009, provides fiscal relief to States to protect and maintain State Medicaid programs in a
period of economic downturn. For the recession adjustment period (October 1, 2008, through
December 31, 2010), the Recovery Act provides an estimated $87 billion in additional Medicaid funding
based on temporary increases in States’ FMAPs. Section 5000 of the Recovery Act provides these
increases to help avert cuts in health care provider payment rates, benefits, or services and to prevent
changes in income eligibility requirements that would reduce the number of individuals eligible for
Medicaid.

To qualify for the increased FMAP, States must meet various criteria. One of these addresses
eligibility. Pursuant to section 5001(f)(1)(A) of the Recovery Act, a State is not eligible for an
increase in its FMAP for quarters during the recession adjustment period in which its Medicaid
eligibility standards, methodologies, or procedures are more restrictive than those in effect on
July 1, 2008.

Rhode Island’s Temporary Increase in Federal Medical Assistance Percentage

In accordance with provisions in the Recovery Act, CMS made $144.6 million in additional
Medicaid funding available to the Rhode Island Department of Human Services (the State agency)
for the first three quarters of Federal fiscal year (FY) 2009 (October 2008 through June 2009). For
that period, CMS increased the State agency’s FMAP 11.3 percentage points, from 52.6 percent to
63.9 percent.




                                                    1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency’s Medicaid eligibility standards,
methodologies, and procedures during the first three quarters of FY 2009 were more restrictive
than those in effect on July 1, 2008.

Scope

We reviewed the State agency’s Medicaid eligibility standards, methodologies, and procedures
in effect during the period October 1, 2008, through June 30, 2009, to determine whether they
were more restrictive than those in effect on July 1, 2008. We did not review a sample of
eligibility case files to validate that standards, methodologies, or procedures were consistently
used in determining Medicaid eligibility. We did not determine if the State agency increased its
Medicaid eligibility income standards (expressed as a percentage of the poverty line) or if it
applied the increased FMAP to expenditures for individuals made eligible for Medicaid as a
result of increased income standards. We did not review the State agency’s overall internal
control structure. We limited our review to obtaining an understanding of the procedures that the
State agency used for changing eligibility standards, methodologies, and procedures and for
communicating these procedures to the staff members who made eligibility determinations.

We performed our fieldwork at the State agency in Cranston, Rhode Island, from July through
September 2009.

Methodology

To accomplish our objective, we:

       reviewed the Recovery Act and applicable CMS guidance;

       reviewed all Medicaid eligibility-related changes made to Rhode Island’s State plan after
        July 1, 2008;

       reviewed all changes made to Rhode Island’s Medicaid Eligibility Manual after July 1,
        2008;

       interviewed CMS regional office officials;

       interviewed State agency management and Medicaid eligibility policy officials;

       interviewed Medicaid field office staff members who made eligibility determinations to
        determine how changes in eligibility standards, methodologies, and procedures were
        communicated to them and what changes they implemented after July 1, 2008; and




                                                2
      compared all revised eligibility standards, methodologies, and procedures implemented
       after July 1, 2008, with those in effect on July 1, 2008.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                    RESULTS OF REVIEW

Although the State agency made changes to its Medicaid eligibility standards, methodologies,
and procedures after July 1, 2008, the standards, methodologies, and procedures in effect during
the first three quarters of FY 2009 were not more restrictive than those in effect on July 1, 2008.

The eligibility changes included:

      updates to Federal guidelines, such as poverty level charts and standards used to
       determine applicants’ needs in relation to their resources;

      editorial changes that did not affect the eligibility process; and

      changes that made the eligibility process less restrictive.

This report contains no recommendations.




                                                 3
